Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




 MEDICARE COMPLIANCE REVIEW
     OF MORTON HOSPITAL
     FOR CALENDAR YEARS
       2010 AND 2011


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                     David Lamir
                                               Regional Inspector General

                                                      January 2014
                                                      A-01-13-00500
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

Morton Hospital did not fully comply with Medicare requirements for billing inpatient and
outpatient services, resulting in overpayments of $548,000 over 2 years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that are at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represents 43 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

The objective of this review was to determine whether Morton Hospital (Morton) complied with
Medicare requirements for billing inpatient and outpatient services on selected claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay. CMS pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification.

Morton, which is part of the Steward Health Care System, is a 154-bed acute care hospital
located in Taunton, Massachusetts. Medicare paid Morton approximately $79 million for 7,904
inpatient and 134,975 outpatient claims for services provided to beneficiaries during CYs 2010
and 2011 based on CMS’s National Claims History data.

Our audit covered $1,480,529 in Medicare payments to Morton for 221 claims that we
judgmentally selected as potentially at risk for billing errors, consisting of 194 inpatient and
27 outpatient claims. Of these 221 claims, 219 had dates of service in CYs 2010 or 2011, and 2
claims (involving outpatient drugs) had dates of service in CY 2009.

WHAT WE FOUND

Morton complied with Medicare billing requirements for 43 of the 221 inpatient and outpatient
claims we reviewed. However, Morton did not fully comply with Medicare billing requirements
for the remaining 178 claims, resulting in overpayments of $548,451 for CYs 2010 and 2011
(176 claims) and CY 2009 (2 claims). Specifically, 155 inpatient claims had billing errors,
resulting in overpayments of $516,760, and 23 outpatient claims had billing errors, resulting in
overpayments of $31,691. These errors occurred primarily because Morton did not have




Medicare Compliance Review of Morton Hospital (A-01-13-00500)                                 i
adequate controls to prevent the incorrect billing of Medicare claims within the selected risk
areas that contained errors.

WHAT WE RECOMMEND

We recommend that Morton:

    •   refund to the Medicare contractor $548,451 consisting of $516,760 in overpayments for
        155 incorrectly billed inpatient claims and $31,691 in overpayments for 23 incorrectly
        billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

MORTON HOSPITAL COMMENTS AND OUR RESPONSE

In written comments on our draft report, Morton concurred with most of our findings and
recommendations. However, Morton disagreed that it incorrectly billed 12 claims as inpatient
and stated that it intends to appeal the claims at issue. We maintain these claims did not comply
with Medicare billing requirements.

Morton also stated that it has developed corrective action plans to address the identified errors.
We acknowledge Morton’s efforts to implement stronger controls.




Medicare Compliance Review of Morton Hospital (A-01-13-00500)                                    ii
                                                    TABLE OF CONTENTS

INTRODUCTION .........................................................................................................................1

       Why We Did This Review .....................................................................................................1

      Objective ................................................................................................................................1

      Background ............................................................................................................................1
          The Medicare Program ..................................................................................................1
          Hospital Inpatient Prospective Payment System ...........................................................1
          Hospital Outpatient Prospective Payment System ........................................................1
          Hospital Claims at Risk for Incorrect Billing ................................................................2
          Medicare Requirements for Hospital Claims and Payments .........................................2
          Morton Hospital ............................................................................................................3

      How We Conducted This Review ..........................................................................................3

FINDINGS .....................................................................................................................................3

      Billing Errors Associated With Inpatient Claims ...................................................................3
            Incorrectly Billed as Inpatient .......................................................................................4
            Incorrect Discharge Status.............................................................................................4
            Incorrectly Billed as Separate Inpatient Stays ...............................................................4
            Incorrect Source-of-Admission Code............................................................................5

       Billing Errors Associated With Outpatient Claims................................................................5
             Incorrectly Billed Number of Units...............................................................................5
             Incorrectly Billed Outpatient Services Provided During an Inpatient Stay ..................6
             Incorrectly Billed Outpatient Services With Modifier -59 ............................................6
             Incorrect Billing for Noncovered Dental Services ........................................................6

RECOMMENDATIONS ...............................................................................................................6

MORTON HOSPITAL COMMENTS AND OUR RESPONSE ..................................................7

APPENDIXES

      A: Audit Scope and Methodology .........................................................................................8

      B: Results of Review by Risk Area .....................................................................................10

      C: Morton Hospital Comments ...........................................................................................11




Medicare Compliance Review of Morton Hospital (A-01-13-00500)                                                                                iii
                                                INTRODUCTION

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that are at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represents 43 percent of all fee-for-service payments;
therefore, the Office of Inspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether Morton Hospital (Morton) complied with Medicare
requirements for billing inpatient and outpatient services on selected claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program. CMS contracts with Medicare contractors to, among other things, process
and pay claims submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system. The rates vary according to the diagnosis-related group (DRG) to
which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services
within each APC group. 1 All services and items within an APC group are comparable clinically
and require comparable resources.

1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.

                                                                                                             1
Medicare Compliance Review of Morton Hospital (A-01-13-00500)
Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of claims at risk for noncompliance:

    •   inpatient short stays,

    •   inpatient claims billed with high severity level DRG codes,

    •   inpatient manufacturer credits for replaced medical devices,

    •   inpatient transfers,

    •   inpatient same-day discharges and readmissions,

    •   inpatient psychiatric facility (IPF) emergency department adjustments,

    •   inpatient claims paid greater than charges,

    •   outpatient drugs,

    •   outpatient claims billed during inpatient stays,

    •   outpatient claims billed with modifiers, and

    •   outpatient dental services.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items and services that “are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Social Security Act (the Act), section 1862(a)(1)(A)). In
addition, the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider (section 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
section 424.5(a)(6)).

The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No. 100-
04, chapter 1, section 80.3.2.2). The Manual states that providers must use HCPCS codes for
most outpatient services (chapter 23, section 20.3).


                                                                                                   2
Medicare Compliance Review of Morton Hospital (A-01-13-00500)
Morton Hospital

Morton, which is part of the Steward Health Care System, is a 154-bed acute care hospital
located in Taunton, Massachusetts. Medicare paid Morton approximately $79 million for 7,904
inpatient and 134,975 outpatient claims for services provided to beneficiaries during CYs 2010
and 2011 based on CMS’s National Claims History data.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $1,480,529 in Medicare payments to Morton for 221 claims that we
judgmentally selected as potentially at risk for billing errors. These 221 claims consisted of 194
inpatient and 27 outpatient claims. Of these 221 claims, 219 had dates of service in CYs 2010 or
2011, and 2 claims (involving outpatient drugs) had dates of service in CY 2009. 2 We focused
our review on the risk areas that we had identified as a result of prior OIG reviews at other
hospitals. We evaluated compliance with selected billing requirements and subjected 21 claims
to focused medical review to determine whether the services were medically necessary. This
report focuses on selected risk areas and does not represent an overall assessment of all claims
submitted by Morton for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our scope and methodology.

                                                 FINDINGS

Morton complied with Medicare billing requirements for 43 of the 221 inpatient and outpatient
claims we reviewed. However, Morton did not fully comply with Medicare billing requirements
for the remaining 178 claims, resulting in overpayments of $548,451 for CYs 2010 and 2011
(176 claims) and CY 2009 (2 claims). Specifically, 155 inpatient claims had billing errors,
resulting in overpayments of $516,760 and 23 outpatient claims had billing errors, resulting in
overpayments of $31,691. These errors occurred primarily because Morton did not have
adequate controls to prevent the incorrect billing of Medicare claims within the selected risk
areas that contained errors. For the results of our review by risk area, see Appendix B.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

Morton incorrectly billed Medicare for 155 of 194 selected inpatient claims, which resulted in
overpayments of $516,760.



2
 We selected these two claims for review because they were brought to our attention through another OIG analysis
of high-risk outpatient drugs. We did not include these claims in the scope of the other audit.

                                                                                                             3
Medicare Compliance Review of Morton Hospital (A-01-13-00500)
Incorrectly Billed as Inpatient

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, section 1862(a)(1)(A)).

For 101 of the 194 selected claims, Morton incorrectly billed Medicare Part A for beneficiary
stays that should have been billed as outpatient or outpatient with observation services. Morton
officials stated that the errors occurred primarily because Morton relied on an outside consultant
to review these claims and because Morton did not have enough staff to review all patients’ stays
on a consistent and timely basis. Additionally, for some cases, Morton relied on an evidence-
based clinical decision support tool to answer critical questions about the appropriate level of
care. As a result of these errors, Morton received overpayments of $475,499. 3

Incorrect Discharge Status

Hospitals must bill inpatient discharges as transfers when (1) the patient is readmitted the same
day to another hospital unless the readmission is unrelated to the initial discharge (42 CFR
section 412.4(b). A hospital that transfers an inpatient under the above circumstance is paid a
graduated per diem rate for each day of the patient’s stay in that hospital, not to exceed the full
DRG payment that would have been paid if the patient had been discharged to another setting
(42 CFR section 412.4(f)).

For 2 of the 194 selected claims, Morton incorrectly billed Medicare for patient discharges that
were transfers to other hospitals. For these claims, Morton coded the discharge status as “left
against medical advice” based upon the highest level of care known at the time of discharge and
its plan for the patient. However, our audit found that the patients were actually admitted to
other acute care hospitals on the same day. Therefore, Morton should receive a per diem
payment instead of the full DRG payment when the claims are billed correctly. Morton officials
stated that the errors occurred primarily because the patients left against medical advice and
Morton staff did not know until our audit that the patients entered other facilities. As a result of
these errors, Morton received overpayments of $24,926.

Incorrectly Billed as Separate Inpatient Stays

The Manual (chapter 3, section 40.2.5) states:

        When a patient is discharged/transferred from an acute care Prospective Payment
        System (PPS) hospital, and is readmitted to the same acute care PPS hospital on
        the same day for symptoms related to, or for evaluation and management of, the

3
 Morton may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed and adjudicated by the Medicare
administrative contractor prior to the issuance of our report.


                                                                                                                4
Medicare Compliance Review of Morton Hospital (A-01-13-00500)
        prior stay’s medical condition, hospitals shall adjust the original claim generated
        by the original stay by combining the original and subsequent stay onto a single
        claim.

For 2 of the 194 selected claims, Morton billed Medicare separately for related discharges and
readmissions within the same day. Morton officials attributed the errors to human error. As a
result of these errors, Morton received overpayments of $11,441.

Incorrect Source-of-Admission Code

CMS adjusts the Federal per diem rate upward for the first day of a Medicare beneficiary’s IPF
stay to account for the costs associated with maintaining a qualifying emergency department (42
CFR section 412.424). The Manual states that CMS makes this additional payment regardless of
whether the beneficiary used emergency department services; however, the IPF should not
receive the additional payment if the beneficiary was discharged from the acute care section of
the same hospital (chapter 3, section 190.6.4). The Manual also states that IPFs report source-of-
admission code “D” to identify patients who have been transferred to the IPF from the same
hospital (chapter 3, section 190.6.4.1). An IPF’s proper use of this code is intended to alert the
Medicare contractor not to apply the emergency department adjustment.

For 50 of the 194 selected claims, Morton incorrectly coded the source-of-admission for
beneficiaries who were admitted to its IPF upon discharge from its acute care section. Morton
officials stated that the errors occurred because of an interface problem between the medical
record software and the billing software. Additionally, Morton’s coding staff did not fully
understand the importance of selecting an accurate source-of-admission code. As a result of
these errors, Morton received overpayments of $4,894.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

Morton incorrectly billed Medicare for 23 of 27 selected outpatient claims, which resulted in
overpayments of $31,691.

Incorrectly Billed Number of Units

The Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, section 80.3.2.2). It also states: “The definition of service units … is the
number of times the service or procedure being reported was performed …” (chapter 4, section
20.4).

For 2 of the 27 selected claims, Morton submitted a claim to Medicare with an incorrect number
of units. Both claims had dates of service in CY 2009. Morton officials stated that these errors
occurred due to human error. As a result of these errors, Morton received overpayments of
$12,743.




                                                                                                 5
Medicare Compliance Review of Morton Hospital (A-01-13-00500)
Incorrectly Billed Outpatient Services Provided During an Inpatient Stay

Certain items and nonphysician services furnished to inpatients are covered under Part A and
consequently are covered by the inpatient prospective payment rate (the Manual, chapter 3,
section 10.4).

For 13 of the 27 selected claims, Morton incorrectly billed Medicare Part B for outpatient
services provided during an inpatient stay that should have been included on its inpatient (Part
A) bills to Medicare. Morton officials stated that these errors occurred primarily because billing
staff did not fully understand Morton’s internal report of outpatient services provided during an
inpatient stay. As a result of these errors, Morton received overpayments of $9,710.

Incorrectly Billed Outpatient Services With Modifier -59

The Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, section 80.3.2.2). It also states: “The ‘59’ modifier is used to indicate a
distinct procedural service …. This may represent a different session or patient encounter,
different procedure or surgery, different site or organ system, separate incision/excision, or
separate injury (or area of injury in extensive injuries)” (chapter 23, section 20.9.1.1).

For 6 of the 27 selected claims, Morton incorrectly billed Medicare for HCPCS codes with
modifier -59 for services that were already included in the payments for other services billed on
the same claim. Morton officials stated that these errors occurred because coding staff relied on
recommendations in the coding software and did not verify that the medical record supported the
use of modifier -59. As a result of these errors, Morton received overpayments of $5,978.

Incorrect Billing for Noncovered Dental Services

The Act states: “No payment may be made under part A or part B for any expenses incurred for
items or services where such expenses are for services in connection with the care, treatment,
filling, removal, or replacement of teeth or structures directly supporting teeth …”
(section 1862(a)(12)).

For 2 of the 27 selected claims, Morton incorrectly billed Medicare for the treatment or removal
of teeth. Morton officials stated that the errors occurred because the billing software did not
contain an edit to identify noncovered dental services; therefore, Morton did not review these
services prior to billing. As a result of these errors, Morton received overpayments of $3,260.

                                      RECOMMENDATIONS

We recommend that Morton:

    •   refund to the Medicare contractor $548,451, consisting of $516,760 in overpayments for
        155 incorrectly billed inpatient claims and $31,691 in overpayments for 23 incorrectly
        billed outpatient claims, and



                                                                                                 6
Medicare Compliance Review of Morton Hospital (A-01-13-00500)
    •   strengthen controls to ensure full compliance with Medicare requirements.

MORTON HOSPITAL COMMENTS AND OUR RESPONSE

In written comments on our draft report, Morton concurred with most of our findings and
recommendations. However, Morton disagreed that it incorrectly billed 12 claims as inpatient
and stated that it intends to appeal the claims at issue. We maintain these claims did not comply
with Medicare billing requirements.

Morton also stated that it has developed corrective action plans to address the identified errors.
We acknowledge Morton’s efforts to implement stronger controls. Morton’s comments are
included in their entirety as Appendix C.




                                                                                                7
Medicare Compliance Review of Morton Hospital (A-01-13-00500)
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $1,480,529 in Medicare payments to Morton for 221 claims that we
judgmentally selected as potentially at risk for billing errors. These 221 claims consisted of 194
inpatient and 27 outpatient claims. Of these 221 claims, 219 had dates of service in CYs 2010 or
2011, and 2 claims (involving outpatient drugs) had dates of service in CY 2009 (see footnote 2).

We focused our review on the risk areas that we had identified as a result of prior Office of
Inspector General reviews at other hospitals. We evaluated compliance with selected billing
requirements and subjected 21 claims to focused medical review to determine whether the
services were medically necessary.

We limited our review of Morton’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by Morton for Medicare reimbursement.

Our fieldwork included contacting Morton in Taunton, Massachusetts during January through
July 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted Morton’s inpatient and outpatient paid claim data from CMS’s National Claims
        History file for CYs 2010 and 2011, and for CY 2009 (two claims);

    •   obtained information on known credits for replaced cardiac medical devices from the
        device manufacturers for CYs 2010 and 2011;

    •   used computer matching, data mining, and data analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

    •   judgmentally selected 221 claims (194 inpatient and 27 outpatient) for detailed review;

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been cancelled or adjusted;

                                                                                                 8
Medicare Compliance Review of Morton Hospital (A-01-13-00500)
    •   reviewed the itemized bills and medical record documentation provided by Morton to
        support the selected claims;

    •   requested that Morton conduct its own review of the selected claims to determine
        whether the services were billed correctly;

    •   reviewed Morton’s procedures for submitting Medicare claims;

    •   used an independent medical review contractor to determine whether 21 selected claims
        met medical necessity requirements;

    •   discussed the incorrectly billed claims with Morton personnel to determine the
        underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments; and

    •   discussed the results of our review with Morton officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




                                                                                             9
Medicare Compliance Review of Morton Hospital (A-01-13-00500)
                         APPENDIX B: RESULTS OF REVIEW BY RISK AREA
                                                                                                  Claims
                                                                                Value of           With           Value of
                                                              Selected          Selected          Over-             Over-
                     Risk Area                                Claims            Claims           payments         payments
Inpatient

Short Stays                                                      97                $445,198           88            $384,352
Claims Billed With High Severity Level
                                                                 34                 239,900           10                  54,478
Diagnosis-Related Group Codes
Manufacturer Credits for Replaced Medical
                                                                  2                   25,733          2                   25,733
Devices
Transfers                                                         2                   37,506          2                   24,926

Same-Day Discharges and Readmissions                              4                   58,534          3                   22,377
Psychiatric Facility Emergency Department
                                                                 50                 499,762           50                   4,894
Adjustments
Claims Paid Greater Than Charges                                  5                   96,965          0                       0

 Inpatient Totals                                                194             $1,403,598          155            $516,760


Outpatient

Drugs                                                             2                 $18,958           2               $12,743

Claims Billed During Inpatient Stays                             13                    9,710          13                   9,710

Claims Billed With Modifiers                                     10                   45,003          6                    5,978

Dental Services                                                   2                    3,260          2                    3,260

 Outpatient Totals                                               27                 $76,931           23              $31,691


 Inpatient and Outpatient Totals                                 221             $1,480,529          178            $548,451

     Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
     outpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
     billing errors we found at Morton. Because we have organized the information differently, the information in the
     individual risk areas in this table does not match precisely with this report’s findings.




                                                                                                                    10
     Medicare Compliance Review of Morton Hospital (A-01-13-00500)
                                     APPENDIX C: MORTON HOSPITAL COMMENTS




     Morton              ~()spital
             A' STEWARD FAMILY HOSPITAL




November 19, 2013



Mr. David Lamir
Regional Inspector General for Audit Services
Office of Audit Services, Region 1
JFK Federal Building
15 New Sudbury Street, Room 2425
Boston, MA 02203

RE: Audit ReportA~01-13-00500, Medicare Compliance Review of Morton Hospital for Calendar
Years 2010 and 2011

Dear Mr. Lamir:

Morton Hospital, a Steward Family Hospital, Inc. ("Morton Hospital" or the "Hospital") has received
and reviewed the October 23, 2013 draft report provided by the Department of Health and Human
Services, Office of the Inspector General (OIG) entitled "Medicare Compliance Review Morton
Hospital for Calendar Years 2010 and 2011" (the "Report").1                                   .


The Hospital understands the important role of the OIG .to protect the integrity of the health and
welfare of beneficiaries served by the programs of the Department of Health and Human Services
(HHS). We are committed to compliance with all applicable laws and regulations and welcome the
opportunity to provide comment to this draft report.

The following represents a summary of corrective actions already initiated by Morton Hospital for
each identified error category:

Inpatient Incorrectly Billed as Inpatient (Short Stays)

The OIG determined that 101 inpatient claims should have been billed as outpatient or observation
services. Of the 101 claims from the OIG's judgmentally selected sample, the Hospital agrees that 89
likely do not meet the current standards of review utilized by the OIG. As indicated in the Report, the
Hospital is working to re-bill claims from the sample In which the OIG and the Hospital have agreed,
using the OIG's current review methodology, likely should have been billed as outpatient or outpatient
with observation services. The hospital respectfully disagrees with the remaining 12 claims and will
pursue appeal of the Medical Review Findings in accordance with Medicare procedures.
1
    Most of the claims subject to the Report were flied prior to the acquisition of the Hospital on October 1, 2011.
    Morton Hospital
    88 Washington Street, Taunton, Massachusetts 02780           Tel: 500-828·7000 www.mortonhospltal.org



    Medicare Compliance Review of Morton Hospital (A-01-13-00500)                                                      11
The Hospital has enhanced its Utilization Review Policy and is working to increase care management
staffing levels to better assess level of care detenninations in a timelier manner. The Hospital is also
working with its medical staff to ensure that improved education and communication lead to more
accurate level of care determinations.

Incorrect Discharge Status

As noted In the Report, for the two discharge disposition code errors Identified, the Hospital was not
made aware that patients who left the hospital against medical advice were subsequently admitted to
another acute care hospital on the same day. The Hospital will continue to make claim corrections,
from discharge to transfers, when it is informed or learns of a subsequent admission to another
hospital on the same day.

Incorrectly Billed as Separate Inpatient Stays
The Hospital has enhanced its care management procedures and revenue cycle coordination to ·
Identify all inpatients readmitted within 24 hours of discharge. Hospital management has worked to
improve Interdepartmental processes that facilitate timely claims evaluation prior to submission. This
includes care management review of identified claims and timely claims adjustment by the Patient
Financial Services department. The Hospital has trained applicable staff on the enhanced
procedures.

Incorrect Source-of-Admission Code

Errors In this area related to an identified software interface issue, which has been corrected. The
Hospital has also implemented a procedure that requires the Patient Access department to review a
report which Identifies all patients discharged from a Hospital acute care bed and admitted to a
Hospital Inpatient Psychiatric Facility (IPF) bed in order to verify that the claim was properly coded
with source of admission code D. Patient Access staff and coders have been educated on the report
and verification process, and monitoring Is in place.

Incorrectly Billed Number of Units

For the two claims found to have an error in the number of medication units charged, the Hospital
re-educated all pharmacy staff on the type of error identified on these claims .

Incorrectly Billed Outpatient Services Provided During an Inpatient Stay

The Hospital has revised its policy related to services provided within 72 hours of an inpatient
admission to reflect the current regulatory requirements, and staff has been provided with the
necessary education and training. Additionally, billing software improvements have led to enhanced
reporting that Identifies accounts that require additional review and potential adjustment prior to claim
submission.

Incorrectly Billed Services with Modifier -59

The Hospital provided additional education to coding staff related to the correct identification of
procedures or services that are distinct or independent from other services performed on the same
day. The Hospital has verified that its billing software identifies any potentially Inappropriate use of
 Morton Hospital
 88 Washington Street. Taunton, Massachusetts 02780 Tel: 608-828-7000 www.mortonhospltai.OIJ



 Medicare Compliance Review of Morton Hospital (A-01-13-00500)                                             12
the modifier, and that the coding department's lead coder reviews these identified claims with the
coder who coded the claim to ensure the correct modifier is used.

Incorrect Billing for DentQI Services

Dental procedures at the Hospital are generally performed only in emergency circumstances. The
two claims found in error were identified as elective procedures where the patient required full
anesthesia. The Hospital has expanded its billing edit software to identify any dental procedures
performed in the Hospital, and has provided its coders with education to ensure that covered dental
procedures are properly charged, including correct modifier selection as appropriate.

Nothing herein should be deemed an admission by the Hospital of any regulatory violations; and the
Hospital reserves the right to appeal any and all claims denied by Medicare Administrative
Contractors.

Morton Hospital takes its obligation to comply with laws, regulations and requirements of payers
seriously and will continue its efforts to strengthen internal controls around billing and documentation
practices. We are confident that the corrective measures outlined in this report will be effective in
addressing the Identified errors.

Thank you for the opportunity to review and provide comment to this report, and for the courtesy and
level of professionalism extended to our staff by the OIG team throughout this audit process.

Please feel free to contact me if you have questions or require additional information.

Sincerely,

Kim Bassett

Kim Bassett, RN, MBA, BSN
President .




 Morton Hospital
88Washlnston street, Taunton, Ma»achusetts 02780 Tel: 508·628-7000 WNW.mortonhospllal.ors



 Medicare Compliance Review of Morton Hospital (A-01-13-00500)                                        13
